U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF INSPECTOR GENERAL

                     FLEET MANAGEMENT OPERATIONS
                    U.S. DEPARTMENT OF THE INTERIOR




Report No. C-IN-MOA-0042-2003             February 2004
                        COVER PHOTOS COURTESY OF:

                              (Clockwise from Top Left)

   “Sign at contour Boise Front.” Bureau of Land Management, Idaho, Four Rivers Office.

 “White Motor Company Model 706 NPS Bus.” National Park Service, Intermountain Region,
                             Yellowstone National Park.

“BLM truck in rangeland area.” Bureau of Land Management, photo by Ron Halvorson, Oregon,
                                     Prineville District.

“Photo of U.S. GLO truck with surveyors.” Bureau of Land Management, Oregon, Oregon State
                                          Office.
This Page Intentionally Left Blank
                    EXECUTIVE SUMMARY
                        The Department of the Interior (Department or DOI)
RESULTS IN BRIEF        needs to make many changes in order to establish an
Comprehensive           effective fleet management program. In fiscal year 2002,
Changes Needed in the   the Department reported it operated 36,000 vehicles at a
Department’s Approach   cost of approximately $200 million. The number of
to Fleet Management     vehicles, the high cost of fleet operations, dispersed
                        geographic locations, and multiple missions make
                        managing DOI fleet operations a challenging undertaking.
                        Further, as part of the increased emphasis on evaluating
                        and reporting government performance, new performance
                        standards and reporting requirements for fleet operations
                        are being developed for government-wide implementation.

                        We audited the fleet management processes for general-
                        purpose vehicles in four of the Department’s six largest
                        fleets. These four fleets comprise 82 percent of the
                        Department’s fleet. General-purpose vehicles are
                        typically sedans, sport utility vehicles, and light duty
                        trucks that are used for the transportation of people and
                        cargo. We excluded specialty vehicles such as law
                        enforcement vehicles, fire trucks, school buses, and heavy
                        duty equipment.

                        Our objective was to determine whether the Department
                        effectively managed its general-purpose fleet. We
                        concluded that the Department and its Bureaus are not
                        effectively managing this fleet. Specifically, we identified
                        that a significant portion of the Department’s fleet is
                        underutilized. We estimated that this costs the
                        Department $34 million annually.

                        We also concluded that until the Department establishes
                        an adequate fleet management information system it will
                        not have the information needed to improve the efficiency
                        of fleet operations including any possible consolidation of
                        resources or operations. Further, without an adequate
                        management information system and other needed
                        management infrastructure improvements, the Department
                        is not prepared to meet impending performance
                        requirements.




                                     i
              To effectively manage its fleet, and meet the expected
              performance requirements, the Department needs:

                     ¾ Fleet managers empowered with decision-
                       making authority to control the size and
                       composition of the fleet.

                     ¾ Fleet management information systems that
                       capture and report all necessary information
                       including cost accounting, utilization data, and
                       efficiency measurements.

                     ¾ Performance measures that are appropriate to
                       the mission of a specific vehicle such as miles
                       per year, days of use, or number of trips per
                       day.

                     ¾ Baseline authorizations or the number of
                       vehicles needed to meet vehicle mission
                       requirements that establish fleet size and
                       composition. To build the baseline
                       authorizations, the Department needs to
                       prepare a justification for each vehicle in the
                       fleet.

                     ¾ A mechanism that provides a constant source
                       of funds for the orderly and timely replacement
                       and/or addition of vehicles to the fleet.

              We have made five recommendations designed to assist
              the Department in improving its fleet operations.

              The Department concurred with our recommendations and
DOI ACTIONS   has developed a comprehensive and coordinated action
              plan that, when implemented, should greatly enhance the
              Department’s fleet management capabilities.




                           ii
TABLE OF CONTENTS
                                                                                           PAGE


INTRODUCTION ............................................................................ 1

       BACKGROUND ..................................................................... 1
       SCOPE ................................................................................... 3

RESULTS OF AUDIT ...................................................................... 4

       FLEET MANAGER AUTHORITY ............................................. 4
       FLEET MANAGEMENT INFORMATION SYSTEM ..................... 6
       FLEET PERFORMANCE MEASURES ....................................... 7
       BASELINE AUTHORIZATIONS ............................................... 8
       FUNDING MECHANISMS ....................................................... 8
       OTHER MATTERS ............................................................... 11

RECOMMENDATIONS ................................................................. 15

APPENDICES

       1–FLEET SCORECARD ........................................................ 17
       2–FINANCIAL IMPACT METHODOLOGY ............................. 18
       3–AUDIT METHODOLOGY .................................................. 19
       4–DOI RESPONSE............................................................... 20
       5–STATUS OF AUDIT REPORT RECOMMENDATIONS .......... 28
       6-CLASSIFICATION OF MONETARY IMPACT ....................... 29




                                                iii
This Page Intentionally Left Blank




                iv
               This report presents the results of our audit of the
INTRODUCTION   Department of the Interior’s (DOI or Department) fleet
               management program. The objective of our audit was
               to determine whether the Department effectively
               managed its general-purpose motor vehicle fleet. We
               concluded that the DOI and its bureaus did not
               effectively manage the general-purpose motor vehicle
               fleets. We believe that this report provides the
               framework necessary for the Department to establish an
               effective fleet management program.

               The actions recommended in this report are designed to
               help the Department take a more businesslike approach
               to fleet management and achieve performance goals.
               Our audit included an examination of prior audit
               reports and Office of Management and Budget (OMB)
               and General Services Administration (GSA)
               correspondence; and an evaluation of the best practices
               employed by the Department, its bureaus, other
               governmental operations, and public entities.

BACKGROUND     The Department is responsible for managing over
               36,000 vehicles including sedans, light-duty pickup
               trucks, buses, vans, fire equipment, and heavy
               equipment. The Department reported that in fiscal year
               2002 it spent over $200,000,000 on fleet activities.
               This information may not be accurate because except
               for the Bureau of Land Management (BLM) the
               bureaus with substantial fleets cannot accurately
               accumulate and report information related to their fleet
               activities. In addition to the sheer number and wide
               geographic dispersal of vehicles, the management
               problems of DOI vehicles are compounded by the
               heavy seasonal demands placed upon the fleet. For
               example, 96 percent of Yellowstone’s three million
               tourists visit the Park during the spring and summer
               seasons. The need to take care of these visitors all at
               the same time greatly increases the demand for fleet
               resources to transport Park employees, volunteers, and
               cargo.

               Fleet management is decentralized throughout the
               Department and its bureaus, with little or no
               standardized information or processes. Fleets are
               operated in multiple locations throughout the




                         1
                                       Department. The breakdown of the fleet as reported by
                                       DOI for fiscal year 2002 is as follows:

                                                            2002 DOI Fleet
                                                                   Comm.     GSA
                                                        Owned
                                         Bureau                    Leased Leased Total
                                                        Vehicles
                                                                   Vehicles Vehicles
                                         BIA              1,860           0   5,266 7,126
                                         BLM              2,808         26    2,415 5,249
                                         BOR              1,346           2     764 2,112
                                         FWS              6,680           0     727 7,407
                                         MMS                 35           0      29     64
                                         NPS              5,758        112    4,601 10,471
                                         USGS             2,104           5     958 3,067
                                         OSM                175           0        0   175
                                         Other                            0   1,218 1,218
                                         TOTAL           20,766        145   15,978 36,889

                                       The individual bureaus use a wide variety of fleet
                                       management systems and fund fleet activities through a
                                       complex variety of processes and appropriations. Only
                                       the BLM has an adequate fleet management
                                       information system and uses a working capital fund to
                                       manage acquisitions and replacements to its vehicle
                                       fleet. Based on our research, we consider a working
                                       capital fund to be a best practice1 for funding fleet
                                       acquisitions and replacements.

                                       In April 2002, OMB asked all agencies to review their
                                       fleet management programs with emphasis on reducing
                                       fleet size. GSA had asked federal agencies to conduct a
                                       self-assessment of their fleet management practices in
                                       2002 and is finalizing its overall report based on those
                                       assessments. OMB and GSA plan on following up
                                       these activities with recommended practices and new
                                       regulations. Accordingly, this report is designed to
                                       provide the information the Department needs to begin
                                       restructuring its fleet management program to meet the
                                       future needs of the Department and comply with the
                                       new requirements.




1
 As explained in Appendix 3, our conclusion is based on reviewing the fleet management plans, practices,
or studies from eight non-DOI entities.


                                                    2
SCOPE   We audited four of the Department’s six largest fleets:
        the Bureau of Indian Affairs, the Bureau of Land
        Management, the Fish and Wildlife Service, and the
        National Park Service. GSA defines a large fleet as
        2,000 or more vehicles. The fleets we audited
        composed approximately 82 percent of the DOI’s total
        inventory of vehicles. To maintain consistency across
        the bureaus, we looked at only general-purpose
        vehicles. We defined general-purpose vehicles as
        sedans, sport utility vehicles, and pick-up trucks used
        for transporting people and cargo. We excluded
        specialty vehicles such as law enforcement, fire trucks,
        school buses, and heavy-duty equipment. Even though
        the scope of this audit was limited to the general-
        purpose fleet, which accounts for 66 percent of the DOI
        fleet, the basic management principles discussed in the
        report can be applied to all fleet assets.




                  3
RESULTS OF AUDIT         We concluded that the Department and its Bureaus are
                         not effectively managing their general-purpose motor
DOI is not effectively   vehicle fleets (see Scorecard, Appendix 1). The BLM
managing its general-    has the tools in place to manage but is not adequately
purpose fleet.           using its available information to run its fleet. The
                         Department and the remaining bureaus cannot manage
                         their fleets because no management infrastructure is in
                         place to account for, evaluate, direct, control, and
                         accurately report on fleet activities. As a result, a
                         significant portion of the Department’s fleet is
                         underutilized. Based on the available information, we
                         estimated that underutilized general-purpose vehicles
                         cost the Department $34 million annually (see
                         Financial Impact Methodology, Appendix 2).

                         We have identified five areas where the Department
                         needs to make changes to make its fleet management
                         program more effective. These areas are:

                            ¾ Fleet manager authority.

                            ¾ Integrated management information system.

                            ¾ Fleet performance measures.

                            ¾ Fleet composition.

                            ¾ Funding mechanism.

                         Improvements in these areas are imperative to enhance
                         performance, mitigate waste, and prepare the
                         Department to meet anticipated performance and
                         reporting requirements.

FLEET MANAGER            The Department and its bureaus do not have fleet
AUTHORITY                managers with decision-making authority over all fleet
                         activities. We found that while all the bureaus had
Empower fleet managers   “fleet managers” few were in a position to make
with decision-making     decisions regarding the acquisition, control, and use of
authority.               vehicles. The fleet managers’ functions were generally
                         administrative in nature, and decisions, including what
                         type of fleet assets are needed, where those assets are
                         needed, and when fleet assets are needed, were
                         generally left to local program managers. We found
                         that local program managers’ decisions tended to be



                                   4
budget driven and made without benefit of adequate
management information, even when it was available.

For example, the fleet manager at one BLM field office
knew that his fleet was underutilized and wanted to
pool resources, but did not have the authority to
override the local program manager’s decision to
individually assign vehicles. As a result, fleet
utilization at this location was only 39 percent.

We were able to identify a strong correlation between
high vehicle utilization rates and the limiting of
individually assigned vehicles. At BLM offices where
vehicles were pooled for use by all employees, the
utilization rates approached 90 percent. At those
offices where vehicles were assigned to individuals, the
utilization rate was only 61 percent. We also found a
strong correlation between fleet managers with
decision-making authority and the use of vehicle pools.
At the offices where utilization was low, program/
activity managers made the decisions on the number
and types of vehicles that the office had, and vehicle
assignments. Conversely, in offices where the fleet
manager was empowered to make fleet decisions, pools
were more prevalent. Unfortunately, our analysis of the
overall BLM statistics indicated vehicles are generally
individually assigned.

Based on a comparison of available bureau
performance data to the bureaus’ own established
standards, we estimated that the general-purpose fleet
utilization rate was only 56 percent of the established
performance targets. At this rate, vehicle
underutilization costs the Department an estimated $34
million a year. When confronted with this information,
some cognizant managers suggested that a way to meet
the performance standard was to lower the standard,
rather than to take action to increase utilization.

Fleet managers should be given authority to and be
accountable for:

   ¾ Right-sizing their fleet by:
        • Controlling acquisition or reallocation of
            fleet resources to meet mission
            requirements. Fleet managers should



          5
                                            consider all resources, including
                                            underutilized vehicles, when right-sizing
                                            the fleet.
                                        •   Controlling the composition of the fleet.

                                ¾ Monitoring performance and taking necessary
                                  actions to ensure that vehicle usage is
                                  maximized by:
                                      • Limiting individual assignment of
                                          vehicles when possible and maximizing
                                          use of vehicle pools.

                                ¾ Evaluating the efficient use of vehicles with
                                  measures such as cost per mile or days used
                                  when making decisions regarding fleet
                                  composition.

                                ¾ Periodically reporting on the status of the fleet.

FLEET MANAGEMENT             The Department and most of its bureaus do not have a
INFORMATION SYSTEM           system or systems that collect and report accurate,
                             reliable data regarding fleet composition and operating
Select and implement Fleet   costs. The bureaus need to select and implement an
Management Information       information system that captures and reports cost
System(s) that capture and   accounting and utilization data. Fleet managers need
report all information       this information to evaluate performance and make
necessary to manage the      fleet management decisions. The system must interface
fleet.                       with the bureaus’ core financial systems to ensure that
                             fleet management systems capture and report the full
                             cost of fleet operations.

                             The Department needs to ensure that the bureaus select
                             and implement systems that interface sufficiently to
                             provide uniform and consistent data that can be
                             consolidated at the Department level to meet external
                             reporting requirements.

                             None of the bureaus, except BLM, had an information
                             system that produced the information needed to manage
                             their respective fleets. Also, with the exception of the
                             BLM, none of the bureaus had a system that interfaced
                             with and was reconcilable to the core financial system.
                             Consequently, other than in the BLM, fleet operations
                             costs could not be reliably determined. Further,
                             because fleet operations costs are not known, actual
                             program or activity costs cannot be identified. As a


                                       6
                                result, informed fleet management decisions cannot be
                                made with regard to:

                                   ¾ Leasing or buying a vehicle.

                                   ¾ Consolidating fleet activities.

                                   ¾ Pooling vehicles.

                                   ¾ Replacing vehicles.

                                An adequate fleet management information system
                                needs to provide, at a minimum, the following for each
                                vehicle:

                                   ¾ Inventory data, such as vehicle type and size,
                                     fuel type, model year, and vehicle identification
                                     number by location and program assignment.

                                   ¾ Performance data, such as mileage, days used,
                                     and number of trips.

                                   ¾ Costs to operate, such as maintenance and repair
                                     costs, lease costs, fuel costs, and depreciation.

                                The system must be capable of calculating efficiency
                                measures, such as cost per mile or cost per day; fuel
                                economy information; and generating information
                                necessary to meet all mandatory reporting
                                requirements.

FLEET PERFORMANCE               The bureaus have generally established annual mileage
MEASURES                        as the performance measure for each vehicle. Annual
                                mileage is the most generally accepted performance
Develop performance             standard for general-purpose vehicles. However,
measures that are               mileage may not be the appropriate measure in all
appropriate to the mission of   cases. For example, although the BLM has established
each vehicle.                   a 10,000 mile a year performance measure for vehicles
                                in its general-purpose fleet, some of its vehicles have
                                missions that would prevent them from ever meeting
                                this measure. Some BLM vehicles are used to transport
                                workers to campsites to clean the campsites and collect
                                trash. These vehicles travel between campsites in a
                                limited geographical area and are only in use during the
                                short camping season, and thus these vehicles would
                                not accumulate significant mileage. Alternative



                                          7
                             measures to accommodate vehicles with specific
                             missions are needed.

BASELINE AUTHORIZATIONS      The Department and its bureaus have not determined
                             how many vehicles or what types of vehicles are
Establish baseline           needed to meet mission requirements. A basic tenet in
authorizations identifying   fleet management is to identify the minimum number
the number of vehicles       and types of vehicles needed to accomplish the mission.
needed to meet mission       The bureaus have not established baselines from which
requirements.                additions, disposals, and replacements can be managed.
                             To build baselines, the bureaus should prepare a
                             justification for each vehicle in their respective fleets.
                             We found that vehicle justifications were inadequate or
                             nonexistent. In a sample of 225 vehicles, we found that
                             172 did not have any justifications prepared, and for 17
                             of the remaining 53 vehicles, documentation did not
                             establish a need for the vehicle based on workload or
                             mission requirements.

                             Each justification needs to specifically identify the need
                             for a vehicle, what type of vehicle is needed, and the
                             associated performance measure. For example, a
                             pooled vehicle may be justified to meet the general
                             transportation needs of the office. The vehicle type for
                             this pooled vehicle would be based on anticipated use.
                             A vehicle used to travel in back country may need to be
                             a four-wheel drive vehicle. Alternatively, traveling
                             among office locations would require a sedan. For a
                             pooled vehicle a normal mileage per year standard
                             would be appropriate. Another vehicle may be needed
                             to clean campgrounds. This vehicle would travel
                             within a limited geographical area but would need
                             cargo capacity and so a pick-up truck may be
                             appropriate. A performance measure for this vehicle
                             could be days of use rather than mileage. The bureaus
                             should use these justifications to build their baseline
                             authorizations and take action to adjust fleet size
                             accordingly.

FUNDING MECHANISMS           The Department and most of its bureaus do not have a
                             mechanism that addresses the timely replacement of
Employ vehicle acquisition   vehicles. Instead, the bureaus rely largely on the
mechanisms that ensure       appropriations process to fund fleet acquisitions. Since
responsive, constant, and    not all budget requests are funded and funds that are
reliable sources of fleet    provided may be needed and used for other purposes,
resources.                   this is not the most reliable strategy. Further, using this



                                        8
funding mechanism forces the bureaus to estimate
vehicle requirements years in advance of actual needs.
As a result, the bureaus may end up with an aging fleet
with high maintenance costs when replacement of
vehicles is necessary but uncertain. This is the case at
Yellowstone National Park.

In its fiscal year 2002 Business Plan, Yellowstone
National Park reported that it is has over 200 light
vehicles in its fleet that exceed the mileage or age
standard and are beyond their useful lives. More than
105 of these vehicles have logged over 100,000 miles.
Operating a fleet of this age and condition is not cost
effective; repair costs rise every year and breakdowns
are more frequent as vehicles age. Yellowstone did not
break out the cost of replacing these light vehicles in its
business plan, but estimated the cost of replacing its
entire obsolete fleet of 205 light vehicles and 194
pieces of heavy equipment was $25 million. The Park
relies on the budget process and appropriated funds to
maintain its fleet. This constrains Yellowstone’s ability
to replace these vehicles and equipment in one budget
cycle. Therefore, the Park plans to replace its obsolete
fleet over the next 20 years. In our opinion, by the time
this process is completed, the Park will be right back in
the same situation–with a 20-year old, obsolete fleet.

Further exacerbating the problem of the antiquated fleet
at Yellowstone is that the Park acquires vehicles
excessed from other federal departments and agencies.
Although there is no initial acquisition cost, vehicles
that are excessed have usually exceeded their useful
lives and have a high burden of repair and maintenance
cost. Adding these types of vehicles to the fleet
increases the number of antiquated vehicles
Yellowstone must maintain. Accordingly, we
concluded that this method of vehicle acquisition does
not provide a businesslike approach to fleet
management.

The Department should de-emphasize purchasing
vehicles through capital appropriations and adopt an
acquisition strategy that ensures responsive, constant,
steady sources of fleet resources.




           9
Currently, two other funding strategies exist that can
provide a constant, reliable source of fleet resources:

   ¾ Leasing from GSA.

   ¾ Using a working capital fund.

Both of these strategies avoid using capital
appropriations to replace existing assets and would
allow the DOI and its bureaus to fund fleet costs out of
normal program/activity funds and to generate activity
based costing information. However, each strategy also
has at least one major drawback that precludes either
one from being the only solution.

Leasing vehicles from GSA offers bureaus and field
offices the convenience of obtaining vehicles to
accommodate large vehicle replacement backlogs and
to meet unplanned vehicle needs. All operating costs
are configured into the monthly rates charged by GSA.
This simplifies accounting for its customers.

The principal drawbacks to leasing vehicles from GSA
are that GSA may not be able to provide what is needed
when it is needed or meet all of the Department’s
resource needs. GSA usually only provides general-
purpose vehicles, but the Department also requires
some specialty vehicles. All vehicles returned to GSA
must be in original condition with normal wear and
tear. DOI agencies frequently need to modify vehicles
with special equipment such as radios and other
accessories. To return modified GSA vehicles, the
agencies need to remove the accessories and repair the
damage.

We also discussed with GSA its capability to meet all
the Department’s fleet requirements. GSA indicated
that currently it does not have the resources to meet all
of the Department’s needs and would need significant
planning time to meet increased demands. GSA
officials indicated it might be able to meet the
Department’s needs over a time frame of six years, with
proper advance planning.

Another fleet management funding strategy is a
working capital fund. A working capital fund



          10
                establishes the reserves needed to replace fleet vehicles
                by charging the programs using the vehicles on a fee
                for service basis. The fees or monthly charges are
                based on historical costs and, like leasing from GSA,
                the use of a working capital fund provides the
                program/activity with accurate cost information. An
                additional benefit to using a working capital fund is that
                it provides an opportunity to mitigate some of the
                demands of the bureaus’ seasonal workloads. For
                example, if fleet vehicles are replaced every 5 years, in
                any given year 20 percent of a bureau’s or field office’s
                fleet will be exchanged. By using a working capital
                fund to manage acquisitions and replacements, the DOI
                and its bureaus are in a position to stagger the
                replacements or hold over the vehicles to handle the
                seasonal workload. That is, the new vehicle can be
                acquired in April and the vehicle being replaced does
                not have to be given up until September. This practice
                of “holding over” vehicles allows for more vehicles to
                be available during the seasonal workload period. The
                option of holding over vehicles is not always available
                when leasing from GSA.

                However, the major drawback to using a working
                capital fund approach as the only solution is the amount
                of initial investment required to establish the fund and
                eliminate any current vehicle replacement backlog.

                In consideration of the advantages and obstacles of the
                two strategies, we have concluded that the best solution
                for the DOI and its bureaus is to use a working capital
                fund in conjunction with GSA leasing where
                appropriate. This is the approach that is used by the
                BLM and it appears to work well.

OTHER MATTERS   During our audit, we identified other issues within fleet
                management that we believe should be considered by
                the Department when revamping its fleet management
                program. The issues are:

                   ¾ Outsourcing of management information
                     systems.

                   ¾ Consolidation.

                   ¾ Guidance.



                          11
Outsourcing Management   DOI could outsource its information management
Information Systems      system for fleet management. UNICOR (Federal
                         Prison Industries) has a fleet information system that it
                         leases to agencies on a fee for service basis. The
                         system collects all fleet performance data to effectively
                         manage a fleet. Other capabilities include:

                            ¾ Interfacing with core financial systems.

                            ¾ Justifications for replacements and maintenance
                              costs budgets for each fiscal year.

                            ¾ True life cycle costing.

                            ¾ Analysis and reporting capabilities.

                            ¾ Preventative and unscheduled maintenance
                              tracking and scheduling.

                            ¾ External reporting capabilities.

                         The Bureau of Citizenship and Immigration Services
                         (BCIS) recently implemented this system; however, we
                         did not review the effectiveness of the system at BCIS
                         because it has been operational for less than one month.
                         GSA has indicated that it may provide fleet
                         management information system services in the future,
                         using its current fleet management system.

                         The Department and its bureaus should consider these
                         options when selecting a fleet management information
                         system.


Consolidation            We could not make a determination whether additional
                         efficiency could be achieved by consolidating fleet
                         operations at any geographical location or within a
                         single agency because of the lack of available fleet
                         information. The concept of consolidation appears to
                         have merit, and may allow the Department to:

                            ¾ Better manage its operations.

                            ¾ Improve the quality of data collection,
                              reporting, and oversight.



                                   12
                            However, bureau managers may be reluctant to support
                            consolidation unless it can be demonstrated that
                            consolidation will result in an overall improvement of
                            fleet operations. The Department and its bureaus
                            would not be able to evaluate the benefits of
                            consolidation until an effective management
                            information system has been implemented and the
                            baseline fleet requirements have been established.

Fleet Management Guidance   Currently, the Department does not have adequate
                            guidance for fleet operations and it does not have a
                            procedures manual published. The Office of
                            Acquisition and Property Management is responsible
                            for establishing necessary policies, standards, operating
                            and reporting procedures, and for providing guidance to
                            the bureaus concerning the acquisition, use,
                            maintenance, disposition, and reporting of motor
                            vehicles. The bureaus have been directed to adhere to
                            41 CFR and Departmental directives for motor fleet
                            management until Departmental policies and
                            procedures can be revised.

                            We compared the policies and procedures of eight
                            bureau handbooks/guidance concerning fleet manager
                            authority, vehicle utilization, vehicle justifications,
                            baseline authorizations, and acquisition/replacements to
                            evaluate how adequately these essential areas of fleet
                            management were addressed by each bureau. In
                            general, we found that each bureau’s fleet management
                            guidance for these areas was either unclear, undefined,
                            or not addressed:

                                        ¾ None of the bureaus’ guidance
                                          established fleet managers’ authority,
                                          although some of the manuals did
                                          assign responsibilities to fleet
                                          managers.

                                        ¾ None of the bureaus’ guidance
                                          established performance measures other
                                          than mileage for the general-purpose
                                          fleet vehicles.

                                        ¾ Most of the bureaus’ did not require
                                          justifications for acquiring and



                                      13
              maintaining vehicles (in terms of fleet
              size or usage).

           ¾ None of the bureaus’ guidance required
             creation of vehicle baseline
             authorizations from which to manage
             vehicles.

           ¾ Guidance for acquisition and
             replacement standards was generally
             vague and subject to interpretation.

Nonetheless, we believe that BLM and FWS have
drafted fleet management manuals that have adequately
addressed two of the five areas. For example, BLM’s
replacement procedures were excellent. Also, the FWS
manual establishes clear policy guidance for
justifications of motor vehicle requirements. Both of
these manuals are in draft and should incorporate the
policies/procedures suggested in this report when
finalized.




         14
                          To improve the overall management of the DOI fleet,
RECOMMENDATIONS we recommend that the Assistant Secretary for Policy,
                          Management and Budget require the Department and
                          its bureaus to plan, develop, and implement a fleet
                          management infrastructure that:

                          1. Gives fleet managers authority over all fleet
                             decisions for:

                           ¾ Right-sizing their fleets.

                           ¾ Monitoring performance and taking necessary
                             actions to ensure that vehicle usage is maximized.

                           ¾ Evaluating the efficient use of vehicles with
                             performance measures when making decisions
                             regarding fleet composition.

                           ¾ Periodically reporting on the status of the fleets.

                          2. Establishes and implements fleet management
                             information system(s) that capture and report all
                             information necessary to manage the fleet such as:

                             ¾ Inventory data.

                             ¾ Performance data.

                             ¾ Costs to operate.

                             ¾ The ability to calculate efficiency measures.

                             ¾ The ability to generate information necessary to
                               meet all mandatory reporting requirements.

                          3. Establishes and implements performance measures
                             that are appropriate to the mission of each vehicle;
                             including mileage standards where appropriate, and
                             alternative measures to accommodate vehicles with
                             specific missions.

                          4. Requires justifications to be prepared for each
                             vehicle based on mission requirements. These
                             justifications should establish the required fleet
                             composition or a Baseline Authorization so that the




                                    15
                          fleet manager can resize the fleet from its baseline
                          as mission requirements change.
                       5. Requires that the Department and its bureaus
                          develop a plan to transition from capital
                          appropriations to a vehicle acquisition mechanism
                          that is responsive, constant, and reliable. Where
                          possible, use a working capital fund in conjunction
                          with leasing from GSA.

DOI RESPONSE AND OIG   In the January 27, 2004, response to the draft audit
CONCLUSION             report from the Assistant Secretary–Policy,
                       Management and Budget, the Department concurred
                       with all five recommendations. The response was
                       sufficient for us to consider the recommendations
                       resolved but not implemented. Accordingly, we are
                       referring the report to the Department’s Focus Leader
                       for Management Accountability and Audit Follow-up
                       for tracking of implementation (see Appendix 5).




                                16
     Fleet Scorecard                                                                 BIA          BLM       FWS   NPS   AVG.
                          A. Do Fleet Managers have decision making
     1. Fleet Manager
                          authority regarding the size and composition of the
     Authority            fleet and how and where the vehicles are used?

                          A. Does the bureau have a fleet information system?
                          B. Does the system capture information that is
                          necessary for accounting, costing, and managing
                          fleet vehicles?
                          C. Does the system produce information that can be
                          used by fleet managers to measure performance
     2. Fleet             against established policies and standards for
     Management           efficient and effective fleet management? If so, does
     Information          this information produce data such as:
                                                                    Cost per mile
     System                                                    Vehicle Utilization
                                                                        Fuel Cost
                          D. Is data produced by the system being used to
                          manage the fleet?




17
                          E. Is the system integrated and does it link to the
                          core financial system?

                          A. Does the bureau have a system to justify changes
     3. Fleet             in the fleet size and composition that are based on
     Performance          specific performance measures?
                                                                                                                               FLEET SCORECARD




     Measures             B. Does the bureau limit the practice of assigning
                          vehicles to individuals, except where necessary to
                          meet very specific mission objectives?

                          A. Does the bureau have baseline authorizations,
     4. Baseline          justifying the acquisition or replacement of each
     Authorizations       vehicle type according to mission requirements?

                          A. Has the bureau established a timely and
     5. Funding           systematic process for funding replacement vehicles
     Mechanisms           other than through the appropriations process?


     Overall Rating
                                                                                                                                                 Appendix 1




                      Satisfactory                  Less than Satisfactory                 Unsatisfactory
                                                                              Appendix 2


                FINANCIAL IMPACT METHODOLOGY
This Appendix describes how we estimated the annual cost of underutilized general-
purpose vehicles within the Department of the Interior. We evaluated the reliability of
cost, inventory, and utilization data available at BIA, BLM, FWS, and NPS and
determined that BLM had the only automated system that provided reliable data. The
BLM’s fleet management information system accurately recorded and reported vehicle
usage, vehicle inventory, and ownership costs for both agency-owned and GSA-leased
vehicles.

Using FWS data, we were able to generate utilization statistics and found that FWS’
underutilization rate approximately equaled BLM’s. However, FWS could not provide
us with accurate cost data. Therefore, to estimate potential cost to the Department for
underutilized vehicles we extrapolated BLM cost data across the entire population of
DOI’s general-purpose fleet.

We developed our estimated cost of underutilizing vehicles using BLM data as follows:

   ¾   Vehicles with at least 12 months of available data.
   ¾   General-purpose vehicles.
   ¾   Average annual ownership cost per vehicle of $3,159.
   ¾   Underutilization rate of 44 percent based on BLM data.

To estimate total costs Department-wide for underutilized vehicles, we applied the 44
percent underutilization rate to the Department’s general-purpose fleet of 24,474 vehicles
(.44 X 24,474 = 10,769). We then multiplied the 10,769 by the average annual
ownership cost of $3,159 (10,769 X $3,159 = $34,019,271). We recognize that each
agency has varying ownership costs, depending on the age of the fleet, and that the
estimate could be somewhat higher or lower based on those costs. However, because
fleet operations data was limited among the bureaus, we concluded that this methodology
could be used to approximate total costs to the Department.




                                            18
                                                                                 Appendix 3




                           AUDIT METHODOLOGY
Our audit was conducted in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States. We included such test of records and
other auditing procedures that we considered necessary under the circumstances.

We reviewed the laws, regulations, and agency policy and procedures applicable to fleet
management activities of the Department and its bureaus. We obtained data on number
of vehicles, cost accounting, and vehicle utilization. Also, we had the bureaus complete
questionnaires regarding fleet size and composition, types of information systems used,
financial information, operational procedures, vehicles acquisitions, determinations of
need, vehicle assignments, and vehicle replacements.

We also compared our preliminary findings to fleet management plans, practices, studies,
or training classes conducted by two non-Departmental federal agencies, two state
agencies, two universities, the General Accounting Office, and the General Services
Administration. Our findings were consistent with problems noted at these public
entities. The results of our best practices review are incorporated into the finding
sections of the report.

During our audit, we determined that the Department did not have its own fleet
management information system. The Department did provide information for the annual
government-wide Federal Fleet Report in the Federal Automotive Statistical Tool (FAST)
using information received from bureau fleet managers and GSA. We used the
information to help us identify the bureaus with fleets and their relative sizes.

We made site visits to state offices, regional offices, and field offices of the four bureaus
we audited. At these locations, we performed tests including a sampling of individual
vehicles from the systems in place at the four bureaus. We used a sample size of 45
vehicles by location. In total, we reviewed 270 vehicles at the four bureaus (45 at BIA,
90 at BLM, 90 at FWS, and 45 at NPS).




                                             19
     Appendix 4




20
21
22
23
24
25
26
OIG chose to not print the additional details
  from the DOI response (Attachment 2)




                     27
                                                                      Appendix 5



 STATUS OF AUDIT REPORT RECOMMENDATIONS
Recommendations         Status                    Action Required

  1, 2, 3, 4, & 5   Resolved; not        No further response to the Office of
                    implemented.         Inspector General is required. The
                                         recommendations will be referred to
                                         the Department’s Focus Leader for
                                         Management Accountability and
                                         Audit Follow-up for tracking of
                                         implementation.




                                    28
                                                        Appendix 6




 CLASSIFICATION OF MONETARY AMOUNTS


                                    Funds To Be Put to Better Use
       Finding Area                    (In Millions of Dollars)


Underutilization of Vehicles                    $34.0




                               29
This Page Intentionally Left Blank
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone — Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240

             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081
                           Caribbean Field Office            340-774-8300
                           Hawaiian Field Office             808-525-5310

             Internet:     www.oig.doi.gov/hotline form.html




                       U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                            Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
